No.20-5279

INTHE

S5)upreme Qtourt of tbe Wniteb S5)tatt!)
WILLIAM DALE WOODEN, PETITIONER

v.
UNITED STATES OF AMERICA

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
2,993 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 5, 2021.

Colin CaseAogan
Wilson-Epes Printing Co., Inc.

